App. 1
United States Court of Appeals
for the Fifth Circuit
-----------------------------------------------------------------------

No. 20-20034
-----------------------------------------------------------------------

JAMES SIMMONS,
Plaintiff–Appellant,
versus
UBS FINANCIAL SERVICES, INCORPORATED,
Defendant–Appellee.
---------------------------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Texas,
USDC No. 4:19-CV-3301
---------------------------------------------------------------------------------------------------------------------------

(Filed Aug. 24, 2020)
Before SMITH, WILLETT, and DUNCAN, Circuit Judges.
JERRY E. SMITH, Circuit Judge:
Title VII claims require an employment relationship between plaintiff and defendant. James Simmons
essentially asks this court to adopt an exception where
a nonemployee (Simmons) is the intentional target of
an employer’s retaliatory animus against one of its employees (Simmons’s daughter). That we cannot do. As a
nonemployee, Simmons asserts interests that are not
within the zone that Title VII protects. We therefore

App. 2
afﬁrm the dismissal of the complaint for lack of statutory standing.
I.
Simmons was employed by Prelle Financial Group
as a third-party wholesaler of life-insurance products
to clients of UBS Financial Services, Incorporated
(“UBS” or “the company”).1 Simmons frequently
worked out of UBS’s ofﬁces.
Simmons’s daughter, Jo Aldridge, was a UBS employee who submitted an internal complaint of pregnancy discrimination and ﬁled a charge with the
EEOC. Aldridge eventually resigned and settled her
claims.
In the months that followed, Simmons’s thirdparty relationship with UBS deteriorated. Allegedly in
retaliation for his daughter’s complaints, UBS revoked
Simmons’s right of access to the UBS ofﬁces and then
eventually forbade him from doing business with its
clients. That effectively ended Simmons’s employment
at Prelle Financial, and he left.
Simmons sued, among others, UBS. He theorized
that the company “retaliated against his daughter by
taking adverse actions against him.” UBS promptly
moved to dismiss, contending that because Simmons
1

Because this case was dismissed under Federal Rule of
Civil Procedure 12(b)(6), the facts are taken from the complaint.
See, e.g., Converse v. City of Kemah, 961 F.3d 771, 774 (5th Cir.
2020).

App. 3
was not a UBS employee, he could not sue under Title
VII. The district court agreed and dismissed with prejudice, holding that Simmons’s nonemployee status
forecloses his statutory standing to sue.
Simmons appeals. The only issue is whether he, a
nonemployee, can sue under Title VII as the intentional target of the retaliation against his daughter. No
federal court of appeals has addressed whether nonemployees can bring such claims.
II.
We review a Rule 12(b)(6) dismissal de novo, Big
Time Vapes, Inc. v. FDA, 963 F.3d 436, 441 (5th Cir.
2020), crediting all well-pleaded facts and construing
them in the plaintiff ’s favor, Jackson v. City of Hearne,
959 F.3d 194, 200 (5th Cir. 2020).
A.
To sue under Title VII, a purported plaintiff must
establish statutory standing. See Thompson v. N. Am.
Stainless, LP, 562 U.S. 170, 178 (2011). Unlike Article
III standing, statutory standing is not jurisdictional.2
2

See, e.g., Lexmark Int’l, Inc. v. Static Control Components,
Inc., 572 U.S. 118, 128 n.4 (2014) (“[T]he absence of a valid . . .
cause of action does not implicate subject-matter jurisdiction, i.e.,
the court’s statutory or constitutional power to adjudicate the
case.”); Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 97
(1998) (“The latter question is an issue of statutory standing. It
has nothing to do with whether there is [a] case or controversy
under Article III.”); Camsoft Data Sys., Inc. v. S. Elecs. Supply,
Inc., 756 F.3d 327, 332 (5th Cir. 2014) (noting that statutory

App. 4
Instead, it asks the “merits question” of “whether or
not a particular cause of action authorizes an injured
plaintiff to sue.” Blanchard 1986, Ltd. v. Park Plantation, LLC, 553 F.3d 405, 409 (5th Cir. 2008).
“[T]he person claiming to be aggrieved . . . by the
alleged unlawful employment practice” has Title VII
standing. 42 U.S.C. § 2000e-5(f )(1). To qualify as a “person . . . aggrieved,” the plaintiff must bring a claim that
“falls within the zone of interests sought to be protected by the statutory provision whose violation forms
the legal basis for his complaint.” Thompson, 562 U.S.
at 177 (quotation marks omitted). That familiar test
“requires [a court] to determine, using traditional tools
of statutory interpretation, whether a legislatively
conferred cause of action encompasses a particular
plaintiff ’s claim.” Lexmark, 572 U.S. at 127.
The zone-of-interests test “is not meant to be especially demanding.” Match-E-Be-Nash-She-Wish Band
of Pottawatomi Indians v. Patchak (“Match-E”), 567
U.S. 209, 225 (2012). Indeed, anyone “with an interest
arguably sought to be protected by the statute” can
head to federal court.3 Even so, a litigant is out of luck
when his “interests are so marginally related to or inconsistent with the purposes implicit in the statute
that it cannot reasonably be assumed that Congress
standing is not jurisdictional and hence should not be analyzed
under Rule 12(b)(1)).
3
Thompson, 562 U.S. at 178 (cleaned up); accord Match-E,
567 U.S. at 225 (“[W]e have always conspicuously included the
word ‘arguably’ in the test to indicate that the beneﬁt of any doubt
goes to the plaintiff.”).

App. 5
intended to permit the suit.” Clarke v. Sec. Indus. Ass’n,
479 U.S. 388, 399 (1987).
We assume, without deciding, that Simmons’s
daughter would have a claim for retaliation based on
UBS’s termination of its business relationship with
her father in response to her protected activity.4 The
question is whether Simmons is also a proper Title VII
plaintiff, even though he did not engage in protected
activity. The case on point is Thompson, 562 U.S. at
172.
B.
In Thompson, the plaintiff (Thompson) and his ﬁancée were employed by the same company. The ﬁancée ﬁled a sex discrimination charge with the EEOC.
Just three weeks later, the company ﬁred Thompson,
who sued, alleging that the company had ﬁred him to
retaliate against his ﬁancée for ﬁling her charge. The
Court held that reprisals visited on third parties can

4

See Thompson, 562 U.S. at 173–75 (analyzing whether company unlawfully retaliated against the plaintiff ’s ﬁancée before
asking whether the plaintiff could maintain his own suit). In moving to dismiss, UBS argued in the alternative that Simmons had
failed to plead a prima facie case of retaliation. The company contended that several of the actions against Simmons were only annoyances, not actionable retaliation, and noted that Simmons’s
sales relationship with UBS ended over a year after the daughter
ﬁled the discrimination charge. The district court did not address
those arguments, instead ruling on statutory standing alone, and
UBS does not press them as an alternative basis to afﬁrm.

App. 6
violate Title VII, id. at 174–75,5 and it concluded that
the decision to ﬁre Thompson was unquestionably an
unlawful act of retaliation against his ﬁancée, id. at
173–74. But “[t]he more difﬁcult question”—as here—
was whether Thompson could also sue the company for
that retaliation. Id. at 175.
Because Thompson qualiﬁed as a “person . . . aggrieved,” 42 U.S.C. § 2000e-5(f )(1), the Justices held
that he could do so, see Thompson, 562 U.S. at 175–78.
Importantly, the Court rejected the categorical view
that only the employee who engages in the protected
activity (in Thompson, the ﬁancée) may sue. Id. at 177.
If that were right, then Congress would have said “person claiming to have been discriminated against,” not
“person claiming to be aggrieved.” Id.; see 42 U.S.C.
§ 2000e-5(f )(1).
Instead, the Court settled on a tried-and-true test
for determining who is a “person . . . aggrieved” with
standing to sue—the zone-of-interests standard highlighted above.6 Applying that standard, the Court held
5

Not just any third party will do, however. The Court “decline[d] to identify a ﬁxed class of relationships for which thirdparty reprisals are unlawful.” Id. at 175. But it noted that “ﬁring
a close family member will almost always meet the . . . standard,
[while] inﬂicting a milder reprisal on a mere acquaintance will
almost never do so.” Id. Again, we assume, without ruling, that
the “reprisal[s]” visited on Simmons counted as unlawful retaliation against his daughter.
6
Id. at 177–78. This test originates in Administrative Procedure Act caselaw. See Lexmark, 572 U.S. at 129. “[I]ts roots lie in
the common-law rule that a plaintiff may not recover under the
law of negligence for injuries caused by violation of a statute unless the statute is interpreted as designed to protect the class of

App. 7
that, for two reasons, Thompson had a cause of action.
First, like his ﬁancée, Thompson was an employee of
the defendant company, “and the purpose of Title VII
is to protect employees from their employers’ unlawful
actions.” Thompson, 562 U.S. at 178. Second, Thompson’s termination “was the employer’s intended means
of harming” his ﬁancée. Id. Thompson was not “an accidental victim of the retaliation” or “collateral damage”; instead, “[h]urting him was the unlawful act by
which the employer punished her.” Id. So, even though
Thompson had not engaged in protected activity, he fell
within Title VII’s zone of interests and so had statutory
standing. See id.
C.
Naturally, both parties try to claim Thompson’s
mantle. Simmons insists that Thompson’s facts and
holding apply without blemish, demonstrating that he
has statutory standing. He theorizes that it is consistent with Title VII’s antidiscrimination purposes to
allow an affected third party like him to sue under his
circumstances even if not employed by the defendant.
The fact that UBS “purposefully targeted him because
of his close association with an employee who has engaged in protected activity” is enough, he thinks, to
bring him within Thompson’s reach (quoting Tolar v.

persons in which the plaintiff is included, against the risk of the
type of harm which has in fact occurred as a result of its violation.” Id. at 130 n.5 (quotation marks omitted).

App. 8
Cummings, No. 2:13–cv–00132-JEO, 2014 WL 3974671,
at *12 (N.D. Ala. Aug. 11, 2014)).
In response, UBS admits that Thompson has some
things in common with this case, insofar as Simmons
too was the intentional victim of an employer’s efforts
to retaliate against one of its employees. But that’s not
nearly enough, the company urges. Like the district
court, UBS considers it dispositive that Simmons was
not an employee of UBS.7
D.
Because he was not a UBS employee, Simmons
lacks Title VII standing. As Thompson observed without controversy, “the purpose of Title VII is to protect
employees from their employers’ unlawful actions.”8
7

UBS does not challenge Simmons’s Article III standing.
That is not surprising, given that Thompson, 562 U.S. at 176,
opined that the similarly situated plaintiff ’s claim “undoubtedly”
met the Article III requirements. To be sure, this case has a
“third-party standing” ﬂavor to it, in that Simmons contends that
he can sue to challenge the retaliation directed at his daughter.
But, in any event, ﬁve Justices recently reafﬁrmed that thirdparty-standing is prudential and forfeitable. See June Med. Servs.
L.L.C. v. Russo, 140 S. Ct. 2103, 2117 (2020) (four-Justice plurality); id. at 2139 n.4 (Roberts, C.J., concurring in the judgment)
(agreeing with plurality’s analysis of third-party standing); see
also Cibolo Waste, Inc. v. City of San Antonio, 718 F.3d 469, 474
& 474 n.4 (5th Cir. 2013) (stating that third-party standing is not
jurisdictional). But see Lexmark, 572 U.S. at 127 n.3 (leaving for
“another day” third-party standing’s “proper place in the standing
ﬁrmament”).
8
Thompson, 562 U.S. at 178; accord EEOC v. Shell Oil Co.,
466 U.S. 54, 77 (1984) (“The dominant purpose of [Title VII], of
course, is to root out discrimination in employment.”); see also

App. 9
And because the plaintiff was himself employed by the
defendant, the Court permitted him to sue. Thompson,
562 U.S. at 178. It would be a remarkable extension of
Thompson—and of Title VII generally—to rule that a
nonemployee has the right to sue. The zone of interests
that Title VII protects is limited to those in employment relationships with the defendant.
Thompson’s focus on Title VII’s employee-protection purpose has ﬁrm support in the statute’s substantive provisions, which set the boundaries of the “zone
of interests.”9 The retaliation ban is the one that matters here, and it forbids discrimination by an “employer” against “any of his employees or applicants for
employment.” 42 U.S.C. § 2000e-3(a) (emphasis added).
And to the extent it is relevant to revealing Title VII’s
broader purposes, the discrimination provision too
speaks of the “terms, conditions, or privileges of employment.” Id. § 2000e-2(a)(1) (emphasis added).

Match-E, 567 U.S. at 226 (beginning the zone-of-interests inquiry
by looking to the statute’s purpose).
9
See, e.g., Bennett v. Spear, 520 U.S. 154, 175–76 (1997)
(“Whether a plaintiff ’s interest is arguably protected by the statute within the meaning of the zone-of-interests test is to be determined . . . by reference to . . . the speciﬁc provision which [he]
allege[s] ha[s] been violated.” (cleaned up)); Lujan v. Nat’l Wildlife Fed’n, 497 U.S. 871, 883 (1990) (noting that the test focuses
on “the statutory provision whose violation forms the legal basis
for [the] complaint”); see also Thompson, 562 U.S. at 173, 178 (reviewing the text of the retaliation provision and concluding that
Title VII is meant to protect employees from the actions of their
employers).

App. 10
To be sure, those provisions delineate what kind of
employer conduct is unlawful and not necessarily who
can sue for it. But that distinction is of little signiﬁcance, because the zone-of-interests test looks to the
law’s substantive provisions to determine what interests (and hence which plaintiffs) are protected. See,
e.g., Bennett, 520 U.S. at 175–76. Here, those provisions
make clear what sort of interests are covered: the interests of those in employment relationships with the
defendant.10 So Simmons’s interests are, at best, only
“marginally related to” the purposes of Title VII.11
Indeed, it is no accident that Thompson’s example
of an “absurd” case for statutory standing involved a
nonemployee. Id. at 176. Imagine a shareholder who
sues a company under Title VII for ﬁring a valuable
employee for discriminatory reasons, theorizing that
the shareholder’s stock value had plummeted as a result. Id. at 177. The Court considered it ridiculous that
the shareholder might be able to maintain such a suit,
so it rejected the theory that anyone with Article III
standing may sue for a Title VII violation. Id. To be
sure, that hypothetical situation is different from this
case in that the shareholder’s loss is only “collateral
damage” of the Title VII violation, id. at 178, but it is
revealing that the Court’s reductio ad absurdum
10

See Thompson, 562 U.S. at 178 (“[T]he purpose of Title VII
is to protect employees from their employers’ unlawful actions.”).
11
Sec. Indus. Ass’n, 479 U.S. at 399. Simmons’s principal
case—White Glove Stafﬁng, Inc. v. Methodist Hosps. of Dall., 947
F.3d 301, 307 (5th Cir. 2020)—followed this approach, looking to
42 U.S.C. § 1981’s substantive ban on discrimination in setting
the zone of protected interests.

App. 11
example involves a nonemployee. “Shareholders are
not within Title VII’s zone of interests because ‘the purpose of Title VII is to protect employees from their employers’ unlawful actions.’"12
Simmons theorizes that his daughter’s status as
an employee is all that matters—hers “is the employment relationship that brings the case within the scope
of Title VII.”13 “[T]he purpose of . . . protect[ing] employees from their employers’ unlawful actions,” Simmons suggests, “is still served by allowing a third party
12

Collins v. Mnuchin, 938 F.3d 553, 576 (5th Cir. 2019) (en
banc) (emphasis added) (quoting Thompson, 562 U.S. at 178), cert.
granted, 2020 WL 3865248 (U.S. July 9, 2020) (No. 19-422), and
cert. granted, 2020 WL 3865249 (U.S. July 9, 2020) (No. 19-563).
13
In support, Simmons notes brieﬂy that the EEOC’s current
guidance suggests that “[w]here there is actionable third party
retaliation, . . . the third party who is subjected to the materially
adverse action may state a claim . . . even if he has never been
employed by the defendant employer” (quoting EEOC Enforcement Guidance on Retaliation and Related Issues § II(B)(4)(b)
(2016), available at https://perma.cc/2LTJ-EHJY). That view departs from the old guidance, which held that such retaliation
could be challenged only where the plaintiff was also an employee
of the defendant. See EEOC Compliance Manual § 8-II(C)(3)
(1998) (emphasis added).
Simmons waives reliance on “Skidmore deference” to the
guidance. Even if we applied it, it would change nothing. Skidmore
deference—if indeed that is the right way to describe it—means
that the agency’s interpretation is “entitled to respect[,] . . . but
only to the extent that [it] ha[s] the power to persuade,” Christensen v. Harris Cty., 529 U.S. 576, 587 (2000) (quotation marks
omitted), which is a bit like saying a court need only respect that
which is respectable. Here, for reasons described, it is not persuasive that Title VII recognizes the interests of third-party nonemployees.

App. 12
to sue for harm it suffers as a direct result of the defendant’s retaliatory animus toward its complaining
employee, even if [the] third party was not itself also
an employee of the defendant” (quoting Tolar, 2014 WL
3974671, at *12).14
But Simmons misunderstands what the zone-ofinterests test is all about: It asks whether this plaintiff
is of the “class” that may sue for the violation.15 In
other words, “the plaintiff must establish that the injury he complains of (his aggrievement, or the adverse
effect upon him) falls within the ‘zone of interests’
sought to be protected.”16 Unsurprisingly, then, in
14

Simmons also suggests that if status as an employee were
“dispositive of standing,” then much of Thompson would have
been surplusage, because “[t]he Supreme Court would simply
have found standing because [the plaintiff there] was an employee.” But Simmons misunderstands UBS’s position, which is
that employment by the defendant is a necessary condition for
bringing suit, not that it is sufﬁcient in every case.
15
Lexmark, 572 U.S. at 128; accord Sec. Indus. Ass’n, 479
U.S. at 397 (focusing on “the class of potential plaintiffs”).
16
Nat’l Wildlife Fed’n, 497 U.S. at 883; see also, e.g., id. at
886 (evaluating whether statute protected the plaintiff ’s recreational and aesthetic interests); Sec. Indus. Ass’n, 479 U.S. at 403
(examining whether a trade association’s competitive interests
were protected by a statute in which Congress sought to prevent
national banks from gaining monopoly control); Nat’l Credit Union Admin. v. First Nat. Bank & Tr. Co., 522 U.S. 479, 499 (1998)
(deciding whether competitors’ interest in limiting the markets
that credit unions may serve was within the zone of interests protected by a statute); Air Courier Conference of Am. v. Am. Postal
Workers Union, AFL-CIO, 498 U.S. 517, 528 (1991) (holding that
postal employees’ interests were outside the zone of a statute giving the federal government a postal monopoly, because the “monopoly . . . exists to ensure that postal services will be provided to

App. 13
evaluating whether the plaintiff could sue, Thompson
focused on the plaintiff ’s circumstances and injuries:
that he was an employee and was the intentional victim of the retaliation. It was not enough that permitting the suit would advance, generally speaking, Title
VII’s goal of eliminating retaliation. Thompson, 562
U.S. at 178.
As a result, his daughter’s status as an employee
is not enough to deposit Simmons into federal court.17
Instead, he must show that his personal interests are
arguably covered. That he has failed to do.18
the citizenry at large, and not to secure employment for postal
workers”).
17
Cf. Nat’l Wildlife Fed’n, 497 U.S. at 883 (focusing on
whether the plaintiff ’s injuries are of the sort that the statute is
designed to protect against).
18
We have so far neglected to mention that Simmons is a
former UBS employee. One might imagine an argument that his
former employment supplies him with the “employment relationship” he needs under Robinson v. Shell Oil Co., 519 U.S. 337, 346
(1997), which recognizes that former employees have Title VII
rights against retaliation by their former employers. Combine
Robinson with Thompson (the intentional victim of the retaliation
against a family-member employee may sue) and—voilà!—maybe
Simmons belongs in federal court.
Simmons not only fails to make that argument—he concedes
that he lacks a relevant employment relationship with UBS. He
classiﬁes himself as a “non-employee” and admits that “the relevant employment relationship for purposes of Title VII is . . . not
between UBS and Mr. Simmons.” So considering a Robinsonbased theory would prejudice UBS—which has had no opportunity to address it—and would contradict basic principles of
waiver. See Smith v. Ochsner Health Sys., 956 F.3d 681, 688 n.2
(5th Cir. 2020) (“[W]aiver is the intentional relinquishment or
abandonment of a known right.”). We therefore reserve for

App. 14
What is “the injury [Simmons] complains of ”—
“his aggrievement, or the adverse effect upon him"? Id.
Unlike in Thompson, 562 U.S. at 178, it has nothing to
do with how his employer treated him. Instead, Simmons’s beef is with an independent entity’s decision to
stop doing business with him as a third-party wholesaler. That is not the stuff that Title VII was written to
address. See id. Simmons’s claims might sound in tort,
but they have no home in the Civil Rights Act of 1964.
Finally, White Glove, 947 F.3d at 307–08, does not
rescue Simmons, even if it does represent a broad application of the zone-of-interests test. That case involved a claim under § 1981—which “protects the
equal right of all persons within the jurisdiction of the
United States to make and enforce contracts without
respect to race”19—brought by a non-minority-owned
stafﬁng company. See White Glove, 947 F.3d at 304, 306.
The stafﬁng company claimed that one of its clients
had discriminated against one of the company’s black
cooks by refusing, on the basis of race, to accept her
services. Id. at 303—04, 307. Even though “the alleged
discrimination was against [the black cook], not [the
another day how Robinson and Thompson interact, and for purposes of this opinion, we classify Simmons just as he identiﬁes
himself: a nonemployee, with no relevant employment relationship with the defendant. See, e.g., United States v. SinenengSmith, 140 S. Ct. 1575, 1579 (2020) (“[O]ur system is designed
around the premise that parties represented by competent counsel know what is best for them, and are responsible for advancing
the facts and argument entitling them to relief.” (cleaned up)).
19
Domino’s Pizza, Inc. v. McDonald, 546 U.S. 470, 474 (2006)
(cleaned up).

App. 15
stafﬁng company] itself,” id. at 307, the company’s
claim still fell within the zone of interests that section
1981 protects, id. at 307–08.
White Glove has minimal application here. It involves a different statute—section 1981—whose expansive language (“[a]ll persons”) suggests a much
broader sweep of permissible plaintiffs than does Title
VII, which is designed for a speciﬁc subclass of persons
(employees). See id. at 307; cf. Bennett, 520 U.S. at 163
(“[T]he breadth of the zone of interests varies according to the provisions of law at issueas. . . .”).
*

*

*

Title VII protects employees from the unlawful
acts of their employers. It does not—even arguably—
protect nonemployees from mistreatment by someone
else’s employer. So the judgment of dismissal is AFFIRMED.

App. 16
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
§
§
Plaintiff,
§
v.
§ CIVIL ACTION NO.
UBS FINANCIAL SERVICES § 4:19-3301
§
INC., et al.,
§
Defendants.
§
JAMES SIMMONS,

MEMORANDUM AND ORDER
(Filed Jan. 6, 2020)
This employment case is before the Court on the
Motion to Dismiss [Doc. # 10] ﬁled by Defendant UBS
Financial Services Inc. (“UBS”), to which Plaintiff
James Simmons ﬁled a Response [Doc. # 11], and UBS
ﬁled a Reply [Doc. # 12]. Having reviewed the record
and the applicable legal authorities, both binding and
persuasive, the Court grants the Motion to Dismiss.
I.

BACKGROUND

Plaintiff sells life insurance. From 2011 until August 2015, Plaintiff was an employee of UBS. In August
2015, Plaintiff became an employee of Defendant
Prelle Financial Group, Inc. (“Prelle”). See Complaint,
¶ 7. As a employee of Prelle, Plaintiff worked as a
third-party wholesaler of life insurance to clients of
UBS.

App. 17
Plaintiff ’s daughter, Jo Aldridge, was an employee
of UBS. She made an internal complaint of pregnancy
discrimination and, in December 2015, ﬁled a charge
of discrimination with the Equal Employment Opportunity Commission (“EEOC”). See id., ¶ 8. Plaintiff alleges that UBS began to “take adverse actions” against
him. See id., ¶ 9. In February 2017, Prelle told Plaintiff
that he could not work at UBS ofﬁces, but could continue to work for Prelle. See id., ¶ 16. Plaintiff “elected
not to continue working for Prelle” and, in March 2017,
ﬁled an EEOC Charge. See id., ¶¶ 16-17.
On August 30, 2019, Plaintiff ﬁled this lawsuit
against Prelle and UBS. Plaintiff asserts a Title VII retaliation claim against both Defendants, and a claim
against Prelle for unpaid commissions. UBS ﬁled its
Motion to Dismiss, arguing that Plaintiff lacks standing to assert a Title VII retaliation claim against it
because he was neither an employee of UBS or an applicant for employment with the company. The Motion
to Dismiss has been fully briefed and is now ripe for
decision.
II.

TITLE VII STANDING

In addition to having Article III standing, a plaintiff must have Title VII standing to assert a Title VII
claim. See Thompson v. N. Am. Stainless, LP, 562 U.S.
170, 177-78 (2011); White Glove Stafﬁng, Inc. v. Methodist Hosps. of Dallas, 2017 WL 3925328, *2 (N.D. Tex.
Sept. 7, 2017). A party has standing under Title VII
when the injured person “falls within the ‘zone of

App. 18
interests’ sought to be protected by the statutory provision whose violation forms the legal basis for his
complaint.” Thompson, 562 U.S. at 177. The Supreme
Court held that this standard for Title VII standing
excludes “plaintiffs who might technically be injured
in an Article III sense but whose interests are unrelated to the statutory prohibitions in Title VII.” Id. at
178. The Supreme Court noted that “the purpose of Title VII is to protect employees from their employers’ unlawful actions.” Id. (emphasis added).
In Thompson, the plaintiff was an employee of
the defendant. See Thompson, 562 U.S. at 172. His employer ﬁred him after his ﬁancé, also an employee of
the defendant, ﬁled an EEOC charge alleging sex discrimination. See id. The Supreme Court, noting that
Title VII makes it an unlawful employment practice
“for an employer” to retaliate against “any of his employees,” and noting that the plaintiff had been an employee of the defendant at the time of the alleged
retaliation, held that the plaintiff had Title VII standing to assert the retaliation claim against the defendant. See id. at 172, 178.
In a concurring opinion in Thompson, Justice
Ginsburg, joined by Justice Breyer, added “a fortifying
observation” – that the EEOC Compliance Manual prohibits retaliation “against someone so closely related to
or associated with the person” engaging in protected
activity. See id. at 179. “Such retaliation ‘can be challenged,’ the Manual afﬁrms, ‘by both the individual
who engaged in protected activity and the relative,

App. 19
where both are employees.’ ” Id. (quoting EEOC Compliance Manual § 8-II(B)(3)(c)) (emphasis added).
In this case, however, it is undisputed that Plaintiff was not an employee of UBS at the time his daughter ﬁled her charge of pregnancy discrimination with
the EEOC or at the time of the alleged adverse actions
against Plaintiff. The Supreme Court in Thompson did
not hold that a non-employee has standing to sue for
retaliation based on protected activity by a third-party
employee of the defendant. The law in the Fifth Circuit
remains that, absent an employment relationship between the plaintiff and the defendant, the plaintiff
lacks standing to bring a Title VII retaliation claim.1
See Thompson, 562 U.S. at 178; White Glove Stafﬁng,
2017 WL 3925328 at *2; see also Body by Cook, Inc. v.
State Farm Mut. Auto. Ins., 869 F.3d 381, 391 (5th Cir.
2017) (“To maintain a claim under Title VII, the plaintiff must demonstrate an ‘employment relationship’
between the plaintiff and the defendant”); Baker v.
Aetna Life Ins. Co., 228 F. Supp. 3d 764, 770 (N.D. Tex.
2017) (“In the Fifth Circuit, to recover under Title VII,
a plaintiff must have an employment relationship
with the defendant”). Therefore, Plaintiff lacks Title
1

Plaintiff cites two unpublished district court cases from
Alabama and Florida, which allow a Title VII retaliation claim by
a non-employee against a relative’s employer. See Response, pp.
6, 8 (citing Tolar v. Cummings, 2014 U.S. Dist. LEXIS 111448
(N.D. Ala. 2014), and McGhee v. Healthcare Servs. Grp., 2011 U.S.
Dist. LEXIS 20897 (N.D. Fla. 2011)). These two non-binding decisions are inconsistent with the clear language in Thompson and
with binding Fifth Circuit authority cited herein. Therefore, the
Court ﬁnds them unpersuasive.

App. 20
VII standing to assert a retaliation claim against UBS
in this case. The Motion to Dismiss is granted.
III. CONCLUSION AND ORDER
Plaintiff at the time of the alleged retaliation was
neither an employee of, nor an applicant for employment with, UBS. As a result, Plaintiff lacks Title VII
standing to assert a retaliation claim against UBS, and
it is hereby
ORDERED that UBS’s Motion to Dismiss [Doc.
# 10] is GRANTED. All claims against UBS are DISMISSED WITH PREJUDICE. It is further
ORDERED that the initial conference is RESCHEDULED to 1:00 p.m. on January 23, 2020.
SIGNED at Houston, Texas, this 6th day of January, 2020.
/s/ Nancy F. Atlas
NANCY F. ATLAS
SENIOR UNITED STATES
DISTRICT JUDGE

App. 21
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
§
§
Plaintiff,
§
v.
§ CIVIL ACTION NO.
UBS FINANCIAL SERVICES § 4:19-3301
§
INC., et al.,
§
Defendants.
§
JAMES SIMMONS,

ORDER
(Filed Jan. 23, 2020)
There being no just reason for delay, it is hereby
ORDERED that Plaintiff James Simmons’s Unopposed Motion for Entry of Rule 54(b) Judgment [Doc.
# 16] is GRANTED. It is further
ORDERED that Final Judgment is hereby entered in favor of UBS Financial Services Inc. pursuant
to the Court’s Memorandum and Order [Doc. # 13] entered January 6, 2020.
SIGNED at Houston, Texas, this 23rd day of January, 2020.
/s/ Nancy F. Atlas
NANCY F. ATLAS
SENIOR UNITED STATES
DISTRICT JUDGE

App. 22
United States Court of Appeals
for the Fifth Circuit
-----------------------------------------------------------------------

No. 20-20034
-----------------------------------------------------------------------

JAMES SIMMONS,
Plaintiff–Appellant,
versus
UBS FINANCIAL SERVICES, INCORPORATED,
Defendant–Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:19-CV-3301
-----------------------------------------------------------------------

ON PETITION FOR REHEARING
(Filed Sep. 9, 2020)
Before SMITH, WILLETT, and DUNCAN, Circuit Judges.
PER CURIAM:
IT IS ORDERED that the petition for rehearing is
DENIED.

App. 23
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
§
§
Plaintiff,
§
VS.
§ No. 4:19cv3301
UBS FINANCIAL SERVICES, § Jury Trial
§ Demanded
INC. and PRELLE FINAN§
CIAL GROUP, INC.,
§
Defendants.
§
JAMES SIMMONS,

COMPLAINT
(Filed Aug. 30, 2019)
Plaintiff James Simmons ﬁles this Complaint
against Defendants UBS Financial Services, Inc. and
Prelle Financial Group, Inc.
Parties
1. Plaintiff James Simmons is an individual residing in Texas.
2. Defendant UBS Financial Services, Inc. is a
Delaware corporation with its principal place of business in Weehawken, New Jersey. UBS may be served
with process through its registered agent, Corporation
Service Company dba Lawyers Incorporating Service
Company, 211 E. 7th Street, Suite 620. Austin, Texas
78701-3218.

App. 24
3. Defendant Prelle Financial Group, Inc. is a
Texas corporation with its main ofﬁce in Houston,
Texas. Prelle Financial may be served with process
through its registered agent, Frederick W. Prelle, Jr.,
4848 Loop Central Drive, Suite 1005, Houston, Texas
77081.
Jurisdiction and Venue
4. This Court has federal question jurisdiction
because the case arises under Title VII of the Civil
Rights Act of 1964. The Court has supplemental jurisdiction over the state law claim.
5. Venue is proper because the events in question
occurred in this District.
Claim for Relief
6. Mr. Simmons markets life insurance products.
He had a longstanding relationship with UBS, which
is a brokerage house. Starting around 2002, he marketed and sold life insurance products to clients of
UBS as a third-party wholesaler. He regularly worked
at UBS’s ofﬁces in the Houston area.
7. At the end of 2011, Mr. Simmons became an
employee of UBS. This lasted until August 2015, when
UBS told Mr. Simmons that he could continue marketing insurance to its clients only if he went to work
for Prelle Financial Group d/b/a Capitas Financial of
Houston. Mr. Simmons agreed to do so. He thus returned to operating as a third-party wholesaler to

App. 25
UBS. None of the claims in this lawsuit arise out of
Mr. Simmons’ employment with UBS or the termination of his employment with UBS.
8. Mr. Simmons’ daughter, Jo Aldridge, was an
employee of UBS and remained an employee after
Mr. Simmons’ departure. Several months after the end
of Mr. Simmons’ employment with UBS, Ms. Aldridge
made an internal complaint of pregnancy discrimination. In December 2015, Ms. Aldridge ﬁled a charge of
discrimination with the EEOC.
9. In April 2016, while Ms. Aldridge was on maternity leave, Mr. Simmons noticed that Ms. Aldridge’s
ofﬁce had been emptied and that her nameplate had
been removed. He reported this to his daughter. At this
point, UBS began to take adverse actions against Mr.
Simmons. It started when the manager of the downtown Houston ofﬁce accused him of taking pictures in
the ofﬁce (apparently believing that Mr. Simmons was
gathering evidence for the EEOC proceeding). In fact,
Mr. Simmons had taken no pictures. UBS restricted
Mr. Simmons’ access at the downtown ofﬁce to the
lobby conference room unless accompanied by a UBS
ﬁnancial advisor. This restriction did not apply to other
third-party wholesalers and thus was based solely on
Mr. Simmons’ relationship to Ms. Aldridge.
10. Mr. Simmons discussed these developments
with Prelle Financial and expressed concern that this
was connected to his daughter’s claim against UBS.
He continued doing business at UBS as usual, aside
from the restriction at the downtown ofﬁce of UBS.

App. 26
11. Around May 2016, UBS replaced the Houston
ofﬁce manager. The new manager told Mr. Simmons
that, if he had been in charge, he would have done
things very differently. He then began lecturing Mr.
Simmons about “taking pictures” in the ofﬁce.
12. During the summer of 2016, Ms. Aldridge resigned her position at UBS. She would eventually settle her claims against UBS.
13. Also in the summer of 2016, UBS apparently
instructed Prelle Financial that UBS did not want
Mr. Simmons to continue working in their ofﬁces in
any capacity. Mr. Simmons could finish out the life
insurance cases he was working on, but that was it. In
September 2016, Warren Prelle informed Mr. Simmons
of this development. After Mr. Simmons repeatedly
pressed for an explanation, Mr. Prelle eventually
claimed that UBS gave no reason for this instruction.
UBS’s instruction caused Mr. Simmons’s pipeline of
new business to dry up. Prelle Financial told Mr.
Simmons to keep working and to see what happened.
14. Much later, UBS claimed that its instruction
was a result of a review of existing vendors and that
it determined that Mr. Simmons was not meeting its
“performance needs.” Given that Mr. Simmons had
been working with UBS clients for many years with
considerable success, this was a transparent pretext
for retaliation and not a legitimate basis for the decision.
15. A few months later, UBS apparently claimed
that Mr. Simmons had made a “ticketing” error and

App. 27
told Prelle Financial that it would no longer allow Mr.
Simmons to do any business with its clients. This claim
was not true (Mr. Simmons did not even have access to
the ticketing system) and, in any event, would not have
been a ground for barring Mr. Simmons from working
with UBS clients. It was, once again, a transparent pretext for retaliation.
16. Prelle Financial informed Mr. Simmons of this
development in February 2017. This effectively ended
Mr. Simmons’ employment. In fact, Warren Prelle told
Mr. Simmons that Prelle Financial would need to part
ways with him. Later, Prelle Financial gave him the
option of receiving a severance payment in exchange
for a release of all claims, but Mr. Simmons refused to
release his claims. Prelle Financial told him that he
could continue to work for Prelle Financial, but not at
UBS. Fred Prelle, the owner of the company, told him
that he hoped that Mr. Simmons would not choose
that option. Fred Prelle also told Mr. Simmons that
pursuing litigation against UBS would endanger
Prelle Financial’s relationship with UBS. Mr. Simmons
eventually elected not to continue working for Prelle
Financial.
17. Mr. Simmons ﬁled charges of discrimination
with the EEOC in March 2017. The EEOC issued right
to sue letters on June 3, 2019.
18. All conditions precedent have occurred or
been satisﬁed.

App. 28
Claim 1: Retaliation by UBS and Prelle Financial
19. Mr. Simmons’ daughter engaged in protected
activity by opposing pregnancy discrimination in violation of Title VII of the Civil Rights Act of 1964. She
later participated in an EEOC proceeding, and UBS
believed that Mr. Simmons was also participating in
that proceeding.
20. UBS retaliated against Mr. Simmons for his
daughter’s protected activity and for what it perceived
as his own protected activity by restricting and then
barring his continued business activities at UBS. This
type of conduct would tend to dissuade a reasonable
employee, such as Mr. Simmons’ daughter, from exercising her rights under Title VII.
21. Mr. Simmons is a “person aggrieved” within
the meaning of 42 U.S.C. § 2000e5(f ) because he was
the target of the retaliation. Although he was not an
employee of UBS at the time of the events in question,
he was within the zone of interests protected by Title
VII.
22. Prelle Financial is responsible for this retaliation because (a) it participated in the retaliation, and
(b) it knew or should have known about the client’s
discrimination and failed to undertake prompt corrective measures within its control. After Mr. Simmons
ﬁled a charge of discrimination against UBS, contrary
to Prelle Financial’s expressed wishes, Prelle Financial
withheld earned commissions from Mr. Simmons.

App. 29
23. UBS and Prelle Financial are therefore liable
to Mr. Simmons for back pay, loss of beneﬁts, compensatory and punitive damages, reinstatement or in the
alternative front pay, injunctive relief, attorneys’ fees,
pre- and post-judgment interest as provided by law,
and all costs of court.
Claim 2: Unpaid Commissions by Prelle Financial
24. In addition, Mr. Simmons earned approximately $60,000 in commissions at Prelle Financial
which remain due, owing, and unpaid despite timely
and repeated demands for payment.
25. Prelle Financial is therefore liable for the unpaid commissions, attorneys’ fees under Chapter 38 of
the Texas Civil Practice and Remedies Code, pre- and
post-judgment interest as provided by law, and all
costs of court.
For the foregoing reasons, UBS and Prelle Financial should be cited to appear and answer and, upon
final hearing, the Court should enter judgment in favor of Mr. Simmons and against UBS and Prelle Financial for back pay, loss of beneﬁts, compensatory and
punitive damages, reinstatement or in the alternative
front pay, injunctive relief, attorneys’ fees, pre- and
post-judgment interest as provided by law, all costs

App. 30
of court, and any other relief to which he may be entitled.
Respectfully submitted,
/s/ David C. Holmes
David C. Holmes, Attorney in Charge
State Bar No. 09907150
Southern District No. 5494
13201 Northwest Freeway, Suite 800
Houston, Texas 77040
Telephone: 713-586-8862
Fax: 713-586-8863
ATTORNEY FOR PLAINTIFF

